®p3uFrimt2 Stand of

of ^lomamna

STATE OF LOUISIANA
No.2020-KI-.l-01107
VS.
DEIDRE ANTOINETTE PIERRE

IN RE: Deidre Pierre - Applicant Defendant; Applying For Supervisory Writ, Parish
of Lafayette, 15th Judicial District Court Number(s) 79255, Court of Appeal, Third
Circuit, Number(s) KH 19-00219;

December 08, 2020
Writ application denied. See per curiam.
SJC
BJJ
JLW
JDH
JTG
WJC
JBM

i

SUPREME COURT OF LOUISIANA

DEC 0 8 2020

No. 20-KH-1107
STATE OF LOUISIANA
v.
DEIDRE ANTOINETTE PIERRE

ON SUPERVISORY WRITS TO THE FIFTEENTH
JUDICIAL DISTRICT COURT, PARISH OF LAFAYETTE

PER CURIAM:
Denied. Applicant does not identify an illegal term in her sentence, and
therefore, her filing is properly construed as an application for post-conviction
relief. See State v. Parker, 98-0256 (La. 5/8/98), 711 So.2d 694. Applicant fails to
show that she received ineffective assistance of counsel under the standard of
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).
Applicant has now fully litigated her application for post-conviction relief in
state court. Similar to federal habeas relief, see 28 U.S.C. § 2244, Louisiana post­
conviction procedure envisions the filing of a second or successive application
only under the narrow circumstances provided in La.C.Cr.P. art. 930.4 and within
the limitations period as set out in La.C.Cr.P. art. 930.8. Notably, the legislature in
2013 La. Acts 251 amended that article to make the procedural bars against
successive filings mandatory. Applicant’s claims have now been fully litigated in

Additional material
from this filing is
available in the
Clerk's Office.

